                      Department of the Interior
                      Office of Inspector General




           AUDIT REPORT



          U.S. Fish and Wildlife Service Wildlife
           and Sport Fish Restoration Program
                  Grants Awarded to the
                  State of South Dakota,
          Department of Game, Fish and Parks,
                    From July 1, 2006,
                  Through June 30, 2008




Report No. R-GR-FWS-0002-2009           April 2009
                United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                              12030 Sunrise Valley Drive, Suite 230
                                      Reston, VA 20191

                                                                                     April 17, 2009

                                      AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Suzanna I. Park
           Director of External Audits

Subject:   Audit on U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
           Grants Awarded to the State of South Dakota, Department of Game, Fish and Parks,
           From July 1, 2006, Through June 30, 2008 (No. R-GR-FWS-0002-2009)

        This report presents the results of our audit of costs incurred by the State of South Dakota
(State), Department of Game, Fish and Parks (Department), under grants awarded by the U.S.
Fish and Wildlife Service (FWS). FWS provided the grants to the State under the Wildlife and
Sport Fish Restoration Program (the Program). The audit included claims totaling approximately
$25.8 million on 40 grants that were open during State fiscal years (SFYs) ended June 30, 2007
and 2008 (see Appendix 1). The audit also covered Department compliance with applicable
laws, regulations, and FWS guidelines, including those related to the collection and use of
hunting and fishing license revenues and the reporting of program income.

        We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. However, we found several instances where the Department had lost
control of some of its lands.

         We provided a draft report to the FWS for a response. We summarized the Department
and FWS responses after the recommendations, as well as our comment on the responses. We
list the status of each recommendation in Appendix 3.

       Please respond in writing to the finding and recommendations included in this report by
July 16, 2009. Your response should include information on actions taken or planned, targeted
completion dates, and titles of officials responsible for implementation.

      If you have any questions regarding this report, please contact the audit team leader, Tom
Nadsady, or me at 703–487–5345.

cc:   Regional Director, Region 6, U.S. Fish and Wildlife Service
                                               Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 established the Wildlife and Sport Fish Restoration Program. Under the Program,
FWS provides grants to States to restore, conserve, manage, and enhance their sport fish and
wildlife resources. The Acts and federal regulations contain provisions and principles on eligible
costs and allow FWS to reimburse States up to 75 percent of the eligible costs incurred under the
grants. The Acts also require that hunting and fishing license revenues be used only for the
administration of the State’s fish and game agency. Finally, federal regulations and FWS
guidance require States to account for any income they earn using grant funds.

Objectives
Our audit objectives were to determine if the Department:

      •    claimed the costs incurred under the Program grants in accordance with the Acts and
           related regulations, FWS guidelines, and the grant agreements;

      •    used State hunting and fishing license revenues solely for fish and wildlife program
           activities; and

      •    reported and used program income in accordance with federal regulations.

Scope
Audit work included claims totaling approximately $25.8 million on the 40 grants that were open
during SFYs ended June 30, 2007 and 2008 (see Appendix 1). We report only on those
conditions that existed during this audit period. We performed our audit at Department
headquarters in Pierre, SD, and visited two regional offices, six Game Production Areas (GPAs),
two fishing access sites, one fish hatchery, one outdoor education center, one shooting range, and
one privately leased hunting access site (see Appendix 2). We performed this audit to
supplement, not replace, the audits required by the Single Audit Act Amendments of 1996 and
by Office of Management and Budget Circular A-133.

Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted auditing procedures
as necessary under the circumstances. We believe that the evidence obtained from our tests and
1
    16 U.S.C. §§ 669 and 777, as amended, respectively.

                                                          2
procedures provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our tests and procedures included:

   •   examining the evidence that supports selected expenditures charged to the grants by the
       Department;

   •   reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
       in-kind contributions, and program income;

   •   interviewing Department employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to inspect equipment and other property;

   •   determining whether the Department used hunting and fishing license revenues solely for
       administration of the Department; and

   •   determining whether the State passed required legislation assenting to the provisions of
       the Acts.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions recorded in these systems for testing. We did not project the results of the tests to
the total population of recorded transactions or evaluate the economy, efficiency, or effectiveness
of Department operations.

Prior Audit Coverage
On April 22, 2004, we issued “Final Audit Report on the U.S. Fish and Wildlife Service Federal
Assistance Grants Administered by the State of South Dakota, Department of Game, Fish and
Parks from July 1, 2001 through June 30, 2003” (No. R-GR-FWS-0026-2003). We followed up
on all recommendations in the report and found that the Department of the Interior, Office of the
Assistant Secretary for Policy, Management and Budget considered them to be resolved and
implemented.

We reviewed South Dakota’s Comprehensive Annual Financial Reports and Single Audit
Reports for SFYs 2006 and 2007. The Department’s Wildlife and Sport Fish Restoration
Program was selected for testing in SFY2006 but not in SFY2007. Neither of the reports
contained any findings that would directly impact the Department’s Wildlife and Sport Fish
Restoration Program grants or programs under the grants.




                                                3
                                         Results of Audit
Audit Summary
We found that the Department complied, in general, with applicable grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance. However, we identified instances
where the Department has allowed encroachments upon its lands. We discuss the finding in
more detail in the Finding and Recommendations Section.

Finding and Recommendations
A.      Loss of Control Over Real Property

        The Department is required to ensure lands acquired with Program funds and license
        revenue are perpetually used for hunting and fishing purposes. However, we found that
        the Department was aware of land encroachments but considered them a lower priority
        and took no action to correct or mitigate the deficiencies. As a result, the Department has
        lost control over real property in several instances. For example:

             • Under a Memorandum of Agreement 2 (MOA), the Department’s Parks and
               Wildlife Divisions divided the management, operations, and maintenance
               responsibilities for their lands to improve efficiency. As a result, the Parks
               Division granted the City of Madison a legal easement to build a bike trail at the
               Johnson’s Point fishing access site, even though that property was purchased with
               Program funds. Managers in the Wildlife Division informed us that the Parks
               Division did not obtain their approval for the easement and that the MOA should
               be renegotiated to ensure that the Wildlife Division’s lands are not managed as
               recreational properties.

            •    Under the MOA’s management authority, the Parks Division issued an adjoining
                 landowner a permit to access his property from Johnson’s Point. Even though the
                 permit was not renewed after 2005, the landowner still crosses the Wildlife
                 Division’s land and accesses his land through an unauthorized gate in fence line
                 dividing the two properties.

            •    At the Clear Lake GPA, five adjoining landowners have built structures (sheds,
                 trailer house, and garage) and stored a truck and boats on the GPA.

            •    At the Dry Lake No. 2 GPA, an adjoining landowner has stored farm equipment
                 and a grain bin on the Department’s land.

            •    At the Wentworth GPA, an adjoining landowner planted crops on the
                 Department’s land and on a road that blocks hunters’ access to the GPA.

2
 The “Memorandum of Agreement Between the Division of Game and Fish and the Division of Parks and
Recreation of the Department of Game, Fish and Parks on the Subject of the Motor Boat Fuel Fund and Associated
Land Management Transfers” was dated November 14, 1977 and amended in 1992.
                                                       4
According to the Code of Federal Regulations (50 C.F.R. § 80.18(c)), the Department is
responsible for “The accountability and control of all assets to assure that they serve the
purpose for which acquired throughout their useful life.” Furthermore, the Fish and
Wildlife Service Manual, in 522 FW 20.4A and 20.6A, states that when the State fish and
wildlife agency loses management control of property purchased with Program funds or
license revenue, control must be fully restored to the agency. Otherwise, the real
property must be replaced using non-Program funds or the license revenue must be
restored to the State agency.

Recommendations

We recommend that FWS work with the Department to:

1. resolve the encroachment issues on lands purchased with Program funds and license
   revenue, and

2. establish a procedure to periodically review its lands for encroachments and resolve
   any identified issues.

Department Response

The Department disagreed with the wording in the report regarding the handling of
encroachment issues stating that it may have been reflective of one individual, but not the
Department. The Department recommended that the final report wording be changed
from “immaterial” to “lower priority.”

FWS Response

The FWS acknowledges the recommendations and did not comment on the finding or the
recommendations.

OIG Comment

Based on the Department's response we agreed to change the word “immaterial” to
“lower priority.” Based on the Department and FWS response, additional information is
needed in the corrective action plan, including:

   •   the specific action(s) taken or planned to address the recommendations;

   •   target completion dates;

   •   titles of officials responsible for implementing the actions taken or planned; and

   •   verification that FWS headquarters officials reviewed and approved of actions
       taken or planned by the Department.



                                         5
                                               Appendix 1
                                                 Page 1 of 2


         STATE OF SOUTH DAKOTA
   DEPARTMENT OF GAME FISH AND PARKS
F INANCIAL SUMMARY OF R EVIEW C OVERAGE
    JULY 1, 2006, THROUGH JUNE 30, 2008
 Grant Number   Grant Amount   Claimed Costs
F-15-R-41           $571,225       $412,347
F-15-R-42            559,248        477,015
F-15-R-43            763,632        150,842
F-21-R-39          1,162,050      1,120,775
F-21-R-40          1,164,810      1,058,428
F-21-R-41          1,220,810        391,993
F-38-DB-40         1,806,968      1,344,556
F-38-DB-41           296,023        236,197
F-38-DB-42         1,522,264      1,188,447
F-38-DB-43           183,425        115,194
F-38-DB-44         1,571,599        323,551
F-38-DB-45           752,000         28,649
F-41-D-16            988,761        892,936
F-41-D-17            980,917        965,227
F-41-D-18          1,099,616        553,674
F-43-D-18             32,600          5,551
F-43-D-19            330,000        224,520
F-43-D-20            400,795        231,398
F-45-E-20            161,000        114,045
F-45-E-21            196,500        120,058
F-111-D-1          2,230,439      2,192,301
F-113-R-1             95,698         23,759
W-75-R-49            864,023        736,878
W-75-R-50            769,423        719,644
W-81-D-48          1,817,175      2,076,185
W-81-D-49          2,064,857      2,084,729
W-81-D-50          1,865,787        846,702
W-95-R-40            866,800        465,783
W-95-R-41            840,800        563,606
W-95-R-42            840,800        181,362
W-96-E-35            346,207        248,092
W-96-E-36            602,382        529,439
W-96-E-37            403,880        124,433


                     6
                                              Appendix 1
                                                Page 2 of 2


         STATE OF SOUTH DAKOTA
   DEPARTMENT OF GAME FISH AND PARKS
F INANCIAL SUMMARY OF R EVIEW C OVERAGE
    JULY 1, 2006, THROUGH JUNE 30, 2008
Grant Number   Grant Amount   Claimed Costs
W-117-L-16        2,401,182       2,115,174
W-117-L-17        2,243,865       2,291,096
W-117-L-18        2,165,543          55,727
W-142-E-3           212,467         178,115
W-142-E-4           213,333          43,498
W-144-R-2            92,975          41,507
W-145-L-1           292,500         292,500
T OTALS         $36,994,379    $25,765,933




                    7
                                                         Appendix 2


        STATE OF SOUTH DAKOTA
  DEPARTMENT OF GAME, FISH AND PARKS
             SITES VISITED
                   Headquarters
                      Pierre

                 Regional Offices
                Aberdeen/Watertown
                    Sioux Falls

              Game Production Areas
                   Clear Lake
                 Dry Lake No. 2
                     Gerkin
                  North Sutton
                    Rice Lake
                   Wentworth

                  Fishing Access
          Johnson’s Point at Lake Madison
                   North Sutton

                    Other Areas
A Sully county privately leased waterfowl hunting area
  Brown County Sportsman’s Club Shooting Range
        Cleghorn Springs State Fish Hatchery
          The Outdoor Campus, Sioux Falls




                          8
                                                                            Appendix 3



                         STATE OF SOUTH DAKOTA
                   DEPARTMENT OF GAME, FISH AND PARKS
              STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS

Recommendations                 Status                        Action Required

A.1 and A.2         FWS acknowledges the                Additional information is needed
                    recommendations but additional      in the corrective action plan,
                    information is needed as outlined   including: the specific action(s)
                    in the “Action Required” column.    taken or planned to address the
                                                        recommendations, targeted
                                                        completion dates, titles of
                                                        officials responsible for
                                                        implementing the actions taken
                                                        or planned; and verification that
                                                        FWS headquarters officials
                                                        reviewed and approved of
                                                        actions taken or planned by the
                                                        Department. We will refer
                                                        recommendations not resolved
                                                        and/or implemented at the end of
                                                        90 days to (after July 16, 2009)
                                                        to the Assistant Secretary for
                                                        Policy, Management and
                                                        Budget, for resolution and/or
                                                        tracking of implementation.




                                         9
  Report Fraud, Waste, Abuse,
     and Mismanagement
           Fraud, waste, and abuse in government
           concerns everyone: Office of Inspector
           General staff, Departmental employees,
             and the general public. We actively
           solicit allegations of any inefficient and
          wasteful practices, fraud, and abuse
           related to Departmental or Insular Area
          programs and operations. You can report
              allegations to us in several ways.




By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW
                   Washington, D.C. 20240

By Phone:          24-Hour Toll Free             800-424-5081
                   Washington Metro Area         703-487-5435

By Fax:            703-487-5402

By Internet:       www.doioig.gov/hotline
